In no event will the late payment fee exceed the amount
of the minimum payment due for the applicable
statement period.
RETURNED PAYMENT FEE: We will charge you a
returned payment fee each time you send us a payment
that is returned unpaid for any reason. We will charge
you this fee each time any payment is returned unpaid,
even if it is paid upon resubmission. The amount of the
returned payment fee is set forth in the Additional
Disclosure. In no event will the returned payment fee
exceed the amount of the minimum payment due for the
applicable statement period.
OVER-THE-CREDIT-LIMIT FEE: You will not be charged
an Over the Credit Limit Fee when using your Card.
BALANCE TRANSFER FEE: You will not be charged a
Balance Transfer Fee.
FEDEX FEE FOR EXPEDITING LOST, STOLEN, OR
ADDITIONAL CARD: We will charge you a fee for the
FedEx delivery of your card as set forth in the Additional
Disclosure.
TELEPHONE PAYMENT: If you make a telephone
request to make a payment, we will charge a
Telephone Payment fee as set forth in the Additional
Disclosure.
CREDITING OF PAYMENTS: All payments made on
your Account at the address designated for payment on
the monthly periodic statement, or made to a member
service representative at any of our branch offices will
be credited to your Account on the date of receipt. If the
date of receipt for a mailed payment or a payment made
at a branch drop box is not a business day, your
payment will be credited on the first business day
following receipt. The required minimum payment for your
Account will be applied first to collection costs, then to
any INTEREST CHARGES and other fees due, and then
to the unpaid principal balance.
BALANCE TRANSFERS: If you request a balance
transfer to be made, you should not rely on a balance
transfer to be made by any particular date. Although
most balance transfers will be made sooner, it could
take up to three weeks before payment to your other
Account is made. Accordingly, you should continue to
make all required payments on your other accounts until
you confirm that the balance transfer has been made.
Balance transfers may not exceed your available credit.
Balance transfer requests will be processed in the order
you list them on the balance transfer request form or
additional sheet if included. If a balance transfer request is
more than the available credit limit, we will automatically
lower the balance transfer amount to your available credit
and complete the transfer. We will not close your other
accounts, even if you transfer the entire balance. A balance
transfer cannot be used to pay TDECU credit card or loan
balances.

bIf you want to close your other accounts, you should
contact the issuer directly. Transfer of a balance that
contains disputed purchases or other charges may cause
you to lose any dispute rights you may have with regard
to those purchases or other charges. There is no grace
period for balance transfers.

or
a wholesale
exchange
rate
selected
by
MasterCard International for the applicable currency on
the day the transaction is processed, which rate may
differ from the applicable rate on the date the
transaction occurred or when the transaction is posted to
your Account.

CREDIT INVESTIGATION: In conjunction with your
application for credit and, if approved, maintenance of
your Account, you agree that we have the right to: (1)
investigate your credit and employment history, (2) verify
your credit references, (3) request and use credit
reports, and (4) report the way you pay your Account to
credit bureaus and other interested parties. We may
report the status and payment history of your Account
to the credit reporting agencies each month. You are
hereby notified that a negative credit report reflecting on
your credit record may be submitted to a credit reporting
agency if you fail to fulfill the terms of this Agreement. If
you believe that the information we have reported to the
credit reporting agencies is inaccurate or incomplete,
please notify us in writing at Texas Dow Employees
Credit Union, 1001 FM 2004, Lake Jackson, TX
77566-4012. Please include your name, address, home
telephone number, and Account number.

SKIP-A-PAYMENT OPTION: From time to time, we may
offer you the opportunity to skip a payment on your
account(s). The offer, if made, will be reflected on your
periodic statement as a message informing you that you
can skip your payment for that month. Your choice to skip
the payment will constitute your acceptance of the offer. As
a result, your payments will resume the following month.
Interest will continue to accrue at the interest rate in effect
at the time for the related skip payment period. All other
provisions of your credit agreement shall apply following the
skipped payment. On a joint account, either member acting
alone may accept the skip payment. Certain account
exclusions may apply.

CONVENIENCE CHECKS: The Credit Union may issue
checks at our discretion that may be used for any
purpose other than making payment for credit to your
Account. By signing such checks, you authorize us to
pay the item for the amount indicated and post such
amount as a cash advance to your Account. We do not
have to pay any item that would cause the outstanding
balance in your Account to exceed your credit limit.
ILLEGAL TRANSACTIONS: You may not use your Card
or Account for any illegal purpose or unlawful
transactions. You agree that we may decline to process
any transaction that we believe in good faith to be for
an illegal purpose. You agree that we will not be liable
for declining to process any such transaction. If we do
process any transaction that ultimately is determined to
have been for an illegal purpose, you agree that you will
remain liable to us under this Agreement for any such
transaction notwithstanding its illegal nature. You agree
that any illegal use of the Card will be deemed an act
of default under this Agreement. You further agree to
waive any right to take legal action against us for your
illegal use of the Card and to indemnify, defend, and
hold us harmless from and against any lawsuits, other
legal action, or liability that results directly or indirectly
from such illegal use.
FOREIGN TRANSACTIONS: If you effect a foreign
transaction with your MasterCard, MasterCard International
will convert the charge into a U.S. dollar amount.
MasterCard International will use its currency conversion
procedure, which is disclosed to institutions that issue
MasterCard cards. Currently, the currency conversion rate
used by MasterCard International to determine the
transaction amount in U.S. dollars for such transactions is
generally either a government-mandated exchange rate

ADDITIONAL PROVISIONS: Each provision of this
Agreement must be considered part of the total Agreement
and cannot in any way be severed from it. However, if any
provision of this Agreement is finally determined to be void
or unenforceable under any law, rule, or regulation, all other
provisions of this Agreement will remain valid and
enforceable.
You
understand
that
the
validity,
construction, and enforcement of this Agreement is
governed by the laws of the State of Texas to the
extent not preempted by applicable federal law, and it
is performable in Brazoria County, Texas. We do not
warrant any merchandise or services purchased by you
with the Card. All purchases and cash advances are
extended at the option of the merchant or cash advancing
financial institution and the Credit Union is not responsible
for the refusal of any merchant or financial institution
to honor your Card. The Card remains our property at
all times and you agree to immediately surrender the
Card upon demand. You agree to pay all reasonable
costs of collection, including court costs and attorney’s
fees, and any costs incurred in the recovery of the
Card. We can accept late payments or partial
payments, or checks or money orders marked “payment
in full” without losing any of our rights under this
Agreement. We can also waive or delay enforcing any
of our rights under this Agreement without losing them.
You expressly waive
presentment
for
payment,
demand, protest, and notice of protest and dishonor of
same. You agree to give us prompt notice of any
change in your name, mailing address, telephone
number or place of employment.
RECEIPT OF AND AGREEMENT TO TERMS AND
CONDITIONS OF AGREEMENT: By signing an application
for the Card or by using the Card, you agree to all the terms
and conditions and promise to perform all the obligations,
requirements, and duties contained in this Agreement,
and you acknowledge receipt of a copy of this Agreement.

M-126439

CREDIT CARD AGREEMENT AND DISCLOSURE
STATEMENT FOR YOUR ONYX MASTERCARD®
ACCOUNT
Notice: Read and retain this copy of your Credit
Card Agreement and Disclosure Statement for future
reference.
TERMS USED IN THIS AGREEMENT: This Agreement and
Disclosure
Statement
(“Agreement”)
covers
your MasterCard® Account (“Account”). In this Agreement
“You” and ‘Your” mean any person who applies for or
uses the Card. “We,” “our,” “us” and “Credit Union” mean
Texas Dow Employees Credit Union (TDECU), the
issuer of your MasterCard. The “Card” means any credit
card issued to you or those designated by you under
the terms of this Agreement. “Use of the Card” means
any procedure used by you, or someone authorized by you,
to make a purchase or an advance whether or not the
purchase or advance is evidenced by a signed written
document. “Unauthorized use of the Card” means the use
of the Card by someone other than you who does not
have actual, implied, or apparent authority for such use,
and from which you receive no benefit. In this
Agreement, any plural terms shall be deemed singular and
any singular terms shall be deemed plural when context and
construction so require.
CONSENSUAL SECURITY INTEREST: You agree to give
the Credit Union a security interest in any and all funds on
deposit in accounts in which you have an ownership
interest, both now and in the future, with the exception of
retirement accounts or any other accounts that would lose
special tax treatment under state or federal law if given as
security. The granting of this security interest is a condition
for the issuance of any Card that you may use, directly and
indirectly, to obtain extensions of credit under this
Agreement. This means that, if you are in default, the
Credit Union can, without prior notice to you, take funds
from any eligible account(s) in which you have an
ownership interest and apply them as a credit against your
credit card Account in any amount available up to the entire
balance. Collateral securing other loans you have with the
Credit Union may also secure this loan.
EXTENSION OF CREDIT: The Credit Union has established
a MasterCard Account in your name and one or more Cards
will be issued to you or to those designated by you. By use
of the Card or the Account you authorize the Credit Union to
pay for your Account all items reflecting credit purchases
and cash advances (including balance transfers).

JOINT APPLICANT LIABILITY: If more than one person
signs the application, each of you shall be jointly and
individually liable to us for all charges made to the Account,
including applicable fees. In addition, you agree that each of
you designates the other as agent for the purpose of
making purchases extended under this Agreement and each
use of your Account shall be an extension of credit to all.
Notice to one of you shall constitute notice to all. Any
cardholder may close the Account at any time by notifying
us in writing. However, removal from the Account does not
release you from any liability already incurred.

your Account to exceed your credit limit as established by
us or as adjusted from time to time at our discretion.
Notwithstanding the foregoing, in our discretion we may
choose to approve a transaction you have requested that
would cause you to exceed your approved credit limit and
you will be responsible for such transactions. Each payment
you make on the Account will restore your credit limit by
that amount of the payment which is applied to the principal
balance of purchases and cash advances. The Credit Union
has the right to reduce or terminate your credit limit at any
time.

CARD SIGNATURE PANEL: Upon receipt of your new or
reissued Card, you must sign the signature panel on the
back of the Card. If the signature panel is not signed,
merchants are not required to accept your Card.

PROMISE TO PAY: You promise to pay us in U.S. dollars
for (a) all purchases, cash advances, and balance transfers
made by you or anyone whom you authorize to use the
Card or Account; (b) INTEREST CHARGES and
other charges or fees; (c) collection costs and attorney’s
fees as permitted by applicable law, and any costs
incurred in the recovery of the Card; and (d) credit in
excess of your credit limit that we may extend to you. At the
end of each monthly billing cycle for which you have a
balance on your Account, you will be furnished with a
periodic
statement
showing
(i)
the
“Previous
Balance” (the outstanding balance in the Account at the
beginning of the billing cycle), (ii) the amount of all cash
advances, purchases, balance transfers, late charges,
INTEREST CHARGES, and other charges or fees posted
to your Account during the billing cycle, (iii) the amount
of all payments and credits posted to your Account during
the billing cycle, and (iv) the “New Balance” which is the
sum of (i) and (ii) minus (iii).

OTHERS USING YOUR ACCOUNT: If you allow anyone
else to use your Account, you will be liable for all credit
extended to such persons, even if that person exceeds your
permission. You promise to pay for all purchases, balance
transfers, and cash advances made by anyone you
authorize to use your Account, whether or not you notify us
that he or she will be using it. If someone else is authorized
to use your Account and you want to end that person’s
privilege, you must notify us in writing, and if he or she has
a Card, you must return the Card with your written notice for
it to be effective.
LIABILITY FOR UNAUTHORIZED USE: You may be liable
for the unauthorized use of your Card. If you notice the loss
or theft of your Card or a possible unauthorized use of your
Card, you should call us immediately at:
(877) 404-1009
You may also write us at:

TDECU
P O Box 31281
Tampa, Florida 33631-3281

Although you may write to notify us of unauthorized use,
calling us immediately at the telephone number above is the
best way to keep your possible losses down.
You are not liable for any unauthorized use of your
MasterCard once you notify us orally or in writing and as
long as you meet the following criteria: (1) you have
exercised reasonable care with your Card; (2) you have not
reported two or more incidents of unauthorized use of your
Card within the previous 12 months; and (3) you have
maintained your Account in good standing. MasterCard’s
zero liability policy does not apply to cash advances
obtained at an ATM.
CREDIT LIMIT: We assign a credit limit to your Account. We
will notify you of the credit limit when the Card is sent to
you. You promise that payments we make for your Account
resulting from use of the Card will at no time cause the
outstanding balance of

You agree to pay on or before the “Payment Due Date”
shown on the monthly periodic statement the entire new
balance or a minimum payment equal to 2% of the new
balance or $18, whichever is greater, plus any amount
in excess of the credit limit established by us. If the
new balance is $18 or less, you agree to pay it in full. You
may make extra payments in advance of the due date
without a penalty, and you may repay any funds
advanced, credit extended, or amount outstanding at
any time without a penalty for early payment. If you
pay more than the minimum payment due in any
month and there is still a balance due, you must
continue
to
make
minimum payments in future
months. Any partial payment of your account balance
will not advance your next payment due date(s).
CREDIT INSURANCE: Credit insurance is not required for
any extension of credit under the Agreement. However, if
available, you may purchase credit insurance through
the Credit Union and have the premium added to
the outstanding balance in your Account. If you elect to do
so, you will be given the necessary disclosures and
documents separately.
TERMINATION OR CHANGES: The Credit Union may add
to, delete, or change the terms of this Agreement from time
to time. Notice of any change will be given in accordance
with applicable law. If permitted by law and specified in
the notice to you, the change will apply to your existing
Account balance as well as to

your future transactions. Either you or the Credit Union may
terminate this Agreement at any time, but termination by you
or the Credit Union will not affect your obligation to pay the
Account balance plus any INTEREST CHARGES and other
charges you owe under this Agreement. You are also
responsible for all transactions made to your Account after
termination, unless the transactions were unauthorized. The
Cards and convenience checks you receive remain the
property of the Credit Union and you must surrender to the
Credit Union all Cards and convenience checks upon
request or upon termination of this Agreement whether by
you or the Credit Union.
DEFAULT: You will be in default: (1) if you fail to make any
payment on time; (2) if you fail to keep any promises you
have made under this or any other agreement with the
Credit Union; (3) if you are the subject of an order for relief
under Title 11 of the U.S. Code (Bankruptcy); (4) if anyone
tries, by legal process, to take any of your money in the
Credit Union (5) if you have given the Credit Union false or
inaccurate information in obtaining your Card; (6) you are
declared incompetent or mentally incapacitated, or you die;
or (7) if anything happens or any condition exists which the
Credit Union reasonably believes impairs your ability to
repay what you owe.
ACCELERATION: If you are in default, the Credit Union
may, without prior notice to you, demand immediate
payment of the Account balance plus INTEREST
CHARGES which shall continue to accrue until the entire
amount is paid. You expressly waive any right to notice or
demand, including but not limited to, demand upon default,
notice of intention to accelerate and notice of acceleration.
The Card remains the property of the Credit Union at all
times and you agree to immediately surrender the Card
upon demand of the Credit Union. You agree to pay all
reasonable costs of collection, including court costs and
attorney’s fees imposed, and any cost incurred in the
recovery of the Card.
COST OF CREDIT: You will pay an INTEREST CHARGE
for all advances made against your Account. If your Account
features an Introductory Rate, you will pay an Introductory
Rate for all advances made against your Account at the
Daily Periodic Rate and corresponding ANNUAL
PERCENTAGE RATE (“APR”) set forth in the Additional
Disclosure attached and incorporated into this Agreement.
Any Introductory Rate applicable to your Account will apply
for the time period as set forth in the Additional Disclosure.
After any Introductory Rate period, or if an Introductory Rate
does not apply to your Account, the Standard Rate periodic
rate for your Account will range from .0260274% per day
to .0479452% per day, which corresponds to an ANNUAL
PERCENTAGE RATE ranging from 9.50% to 17.50%.
Your precise Standard Rate will be determined by review
of your credit report and based on your creditworthiness
and is disclosed in the Additional Disclosure. In addition,
after your Account is opened, we may review your
credit report periodically from time to time at our
discretion and adjust your Standard Rate within the
ranges above according to your credit score. You will be
notified no less than 45 days prior to any rate change.
Cash advances (including balance transfers)

incur an INTEREST CHARGE from the date they are posted to
the Account. If you have paid your Account in full by the due
date shown on the previous monthly statement, or there is no
previous balance, you have not less than 25 days to repay your
Account balance before an INTEREST CHARGE on the
current purchases will be imposed. If you have not paid your
Account in full by the due date shown on the previous monthly
statement, you have no grace period in which to repay your
Account balance before an INTEREST CHARGE on current
purchases will be imposed, and such INTEREST CHARGE
will begin on the date such purchases are posted to your
Account. No additional INTEREST CHARGE will be incurred
whenever you pay the Account in full by the Payment Due Date
shown on your monthly periodic statement.
The INTEREST CHARGE is figured by applying the periodic
rate to the “balance subject to INTEREST CHARGE,” which is
the “average daily balance” of your Account, including certain
current transactions. The “average daily balance” is arrived at
by taking the beginning balance of your Account each day and
adding any new cash advances (including balance transfers),
and, unless you pay your Account in full by the due date shown
on your previous monthly statement or there is no previous
balance, adding in new purchases, and subtracting any
payments or credits and unpaid INTEREST CHARGES. The
daily balances for the billing cycle are then added together and
divided by the number of days in the billing cycle. The result is
the “average daily balance.” The INTEREST CHARGE is
determined by multiplying the “average daily balance” by the
number of days in the billing cycle and applying the periodic
rate to the product. The INTEREST CHARGE for certain
categories of transactions subject to an introductory rate or a
promotional rate may be separately calculated for those
category balances. You may pay any amounts outstanding at
any time without penalty for early payment.
ACCOUNTS WITH DIFFERENT APRS: Payments made in
excess of the required minimum payment will be applied to the
balance with the highest APR and then to balances subject to
lower APRs, in descending order of APRs until all balances
subject to an APR are paid in full.
CASH ADVANCE FEE: We will not charge you a Cash
Advance Fee. If an advance is made by another institution, the
other institution may impose a fee. If you obtain a cash
advance by using an automated teller machine (ATM), any fee
imposed upon the Credit Union by the owner or operator of the
machine may be passed on to you. Any charge made under
this paragraph will be added to the balance of your Account
and treated as a cash advance.
ANNUAL FEE: You will not be charged an annual fee for the
issuance or use of the Card.
LATE PAYMENT FEE: If we do not receive your required
minimum payment within 10 days of the payment due date,
you will be charged a late payment fee as set forth in the
Additional Disclosure.

